July 23, 2012

TO:             Ellen G. Murray
                Assistant Secretary for Financial Resources


FROM:           /Daniel R. Levinson/
                Inspector General


SUBJECT:        U.S. Department of Health and Human Services Did Not Fully Comply With
                Executive Order 13520 When Reporting Fiscal Year 2010 High-Dollar Improper
                Payments (A-02-11-01007)


The attached final report provides the results of our review of the Department of Health and
Human Services’ noncompliance with Executive Order 13520, “Reducing Improper Payments
and Eliminating Waste in Federal Programs,” when reporting fiscal year 2010 high-dollar
improper payments.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact Kay L. Daly, Assistant Inspector General for Audit Services, at
(202) 619-1157 or through email at Kay.Daly@oig.hhs.gov. We look forward to receiving your
final management decision within 6 months. Please refer to report number A-02-11-01007 in all
correspondence.


Attachment
Department of Health and Human Services
            OFFICE OF
       INSPECTOR GENERAL




     U.S. DEPARTMENT OF
HEALTH AND HUMAN SERVICES
 DID NOT FULLY COMPLY WITH
EXECUTIVE ORDER 13520 WHEN
 REPORTING FISCAL YEAR 2010
   HIGH-DOLLAR IMPROPER
          PAYMENTS




                       Daniel R. Levinson
                        Inspector General

                           July 2012
                         A-02-11-01007
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Executive Order 13520, “Reducing Improper Payments and Eliminating Waste in Federal
Programs” (the Executive order), was signed on November 20, 2009, with the purpose of
reducing improper payments by intensifying efforts to eliminate payment error, waste, fraud, and
abuse in major programs. The Executive order required the Office of Management and Budget
(OMB) to identify Federal programs with the highest dollar value or majority of
governmentwide improper payments (high-priority programs).

OMB identified nine programs within the U.S. Department of Health and Human Services (the
Department) as susceptible to significant improper payments. These programs were Medicare
fee-for-service (Parts A and B), Medicare Advantage (Part C), and Medicare Prescription Drug
Benefit (Part D), which are administered by the Centers for Medicare & Medicaid Services;
Head Start, which is administered by the Administration for Children and Families; and
Medicaid, Children’s Health Insurance Program, Foster Care, Temporary Assistance for Needy
Families, and Child Care Development Fund, which are administered by State agencies
(State-administered programs).

Section 3(f) of the Executive order requires the head of each Federal agency to submit a
quarterly report on high-dollar improper payments identified by the agency in its high-priority
programs to its Office of Inspector General (OIG). OMB Circular A-123, Appendix C, part III
(the Circular), section A(1)(b), defines an improper payment as any payment that should not
have been made or that was made in an incorrect amount. Section C(3)(e) of the Circular sets
the thresholds for reporting high-dollar improper payments. Specifically, a high-dollar improper
payment is any overpayment that is in excess of 50 percent of the correct amount of the intended
payment where: (1) the payment to an individual exceeds $5,000 as a single payment or in
cumulative payments for the quarter or (2) the payment to an entity exceeds $25,000 as a single
payment or in cumulative payments for the quarter. Pursuant to section C(5)(n) of the Circular,
the term “entity” excludes Federal, State, and local government agencies.

The Circular, section C(3)(f), states that Federal agencies should identify high-dollar improper
payments by examining several sources of information. For example, agencies could identify
high-dollar errors in statistical samples taken to estimate improper payments under the Improper
Payments Information Act of 2002 (P.L. No. 107-300). Other sources of high-dollar improper
payments include postpayment reviews, recovery audits, OIG reviews, self-reported improper
payments, reports from the public through Internet and telephone hotlines, and other referrals.

Within the Department, the Assistant Secretary for Financial Resources was responsible for
compiling data included in the Department’s fiscal year (FY) 2010 quarterly reports to OIG on
high-dollar improper payments.




                                                i
OBJECTIVE

The objective of our review was to determine whether the Department complied with section 3(f)
of the Executive order in its FY 2010 quarterly reports on high-dollar improper payments.

SUMMARY OF FINDINGS

The Department did not fully comply with section 3(f) of the Executive order in its FY 2010
quarterly reports on high-dollar improper payments. Specifically, the Department did not report
all identified high-dollar improper payments made by Medicare Parts A and B. In addition, for
Medicare Parts C and D, Head Start, and the five State-administered programs, we were unable
to determine whether the Department reported all such payments. The Department’s quarterly
reports were incomplete and cannot be used to adequately assess the level of risk of each of the
Department’s programs or to determine the extent of necessary oversight.

The Department did not comply with section 3(f) of the Executive order because it did not
consider available sources of information that could be applicable to its programs when
compiling the high-dollar improper payment quarterly reports. In addition, it was the
Department’s view that overpayments for which adjustments were being made did not meet the
definition of an improper payment and did not need to be reported, nor did any overpayment
made by the State-administered programs need to be reported.

RECOMMENDATIONS

We recommend that the Department:

   •   consider developing a comprehensive list of overpayments for all of its high-priority
       programs that takes into account each potential source of an improper payment and that
       can be analyzed to determine whether the thresholds for reporting high-dollar improper
       payments have been met and

   •   determine whether there are any high-dollar improper payments for the five
       State-administered programs that should be reported.

DEPARTMENT COMMENTS AND OFFICE OF INSPECTOR GENERAL RESPONSE

In written comments on our draft report, the Department disagreed with our findings and
explained why it believed it had complied with the Executive order’s reporting requirements.
The Department stated, however, that it would carefully consider our recommendations.

After reviewing the Department’s comments, we maintain that our findings and
recommendations are valid. The Department’s comments are included in their entirety as the
Appendix.




                                               ii
                                                   TABLE OF CONTENTS

                                                                                                                                 Page

INTRODUCTION............................................................................................................. 1

   BACKGROUND ............................................................................................................ 1
     Executive Order 13520 ............................................................................................. 1
     Office of Management and Budget Circular A-123 ................................................. 1
     Office of the Assistant Secretary for Financial Resources ....................................... 2

   OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................... 2
     Objective .................................................................................................................. 2
     Scope ........................................................................................................................ 2
     Methodology ............................................................................................................ 2

FINDINGS AND RECOMMENDATIONS ................................................................... 3

   HIGH-DOLLAR IMPROPER PAYMENTS NOT REPORTED .................................. 3
      Federal Requirements ............................................................................................... 3
      Medicare Parts A and B............................................................................................ 3
      Medicare Parts C and D and Head Start ................................................................... 4
      State-Administered Programs................................................................................... 4

   RECOMMENDATIONS ............................................................................................... 5

   DEPARTMENT COMMENTS ..................................................................................... 5

   OFFICE OF INSPECTOR GENERAL RESPONSE ..................................................... 6

APPENDIX

   DEPARTMENT COMMENTS




                                                                      iii
                                       INTRODUCTION

BACKGROUND

Executive Order 13520

Executive Order 13520, “Reducing Improper Payments and Eliminating Waste in Federal
Programs” (the Executive order) was signed November 20, 2009, with the purpose of reducing
improper payments by intensifying efforts to eliminate payment error, waste, fraud, and abuse in
major programs. The Executive order required the Office of Management and Budget (OMB) to
identify Federal programs with the highest dollar value or majority of governmentwide improper
payments (high-priority programs).

OMB identified nine programs within the U.S. Department of Health and Human Services (the
Department) as susceptible to significant improper payments. These programs were Medicare
fee-for-service (Parts A and B), Medicare Advantage (Part C), and Medicare Prescription Drug
Benefit (Part D), which are administered by the Centers for Medicare & Medicaid Services
(CMS); Head Start, which is administered by the Administration for Children and Families
(ACF); and Medicaid, Children’s Health Insurance Program, Foster Care, Temporary Assistance
for Needy Families, and Child Care Development Fund, which are administered by State
agencies (State-administered programs).

Section 3(f) of the Executive order requires the head of each Federal agency to submit a
quarterly report on high-dollar improper payments identified by the agency in its high-priority
programs to its Office of Inspector General (OIG). The reports describe any actions the agency
has taken or plans to take to recover improper payments and to prevent them.

Office of Management and Budget Circular A-123

OMB Circular A-123, Appendix C, part III (the Circular), section A(1)(b), defines an improper
payment as any payment that should not have been made or that was made in an incorrect
amount. Section C(3)(e) of the Circular sets the thresholds for reporting high-dollar improper
payments. Specifically, a high-dollar improper payment is any overpayment that is in excess of
50 percent of the correct amount of the intended payment where: (1) the payment to an
individual exceeds $5,000 as a single payment or in cumulative payments for the quarter or
(2) the payment to an entity exceeds $25,000 as a single payment or in cumulative payments for
the quarter. Pursuant to section C(5)(n) of the Circular, the term “entity” excludes Federal, State,
and local government agencies.

The Circular, section C(3)(f), states that Federal agencies should identify high-dollar improper
payments by examining several sources of information. For example, agencies could identify
high-dollar errors in statistical samples taken to estimate improper payments under the Improper
Payments Information Act of 2002 (P.L. No. 107-300). Other sources of high-dollar improper
payments include postpayment reviews, recovery audits, agency OIG reviews, self-reported
improper payments, reports from the public through Internet and telephone hotlines, and other
referrals.

                                                 1
Office of the Assistant Secretary for Financial Resources

Within the Department, the Assistant Secretary for Financial Resources was responsible for
compiling data included in the Department’s fiscal year (FY) 2010 quarterly reports to OIG on
high-dollar improper payments.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our review was to determine whether the Department complied with section 3(f)
of the Executive order in its FY 2010 quarterly reports on high-dollar improper payments.

Scope

Our review covered the four quarterly reports on high-dollar improper payments that the
Department submitted to OIG for FY 2010 (October 1, 2009, through September 30, 2010).

We did not assess the Department’s overall internal control structure. Rather, we limited our
review to obtaining an understanding of how the Department developed its quarterly reports on
high-dollar improper payments.

We performed fieldwork from November 2010 through May 2011.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal requirements and OMB guidance;

   •    obtained and reviewed the Department’s quarterly reports on high-dollar improper
        payments for FY 2010;

   •    interviewed Department officials to gain an understanding of how the quarterly reports on
        high-dollar improper payments are developed;

   •    interviewed CMS officials about procedures for developing information that CMS reports
        to the Department on high-dollar improper payments for Medicare Parts A, B, C, and D;
        and

   •    obtained information from Department officials on Head Start procedures for developing
        information that ACF reports to the Department on high-dollar improper payments.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions

                                                2
based on our audit objective. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                             FINDINGS AND RECOMMENDATIONS

The Department did not fully comply with section 3(f) of the Executive order in its FY 2010
quarterly reports on high-dollar improper payments. Specifically, the Department did not report
all identified high-dollar improper payments made by Medicare Parts A and B. In addition, for
Medicare Parts C and D, Head Start, and the five State-administered programs, we were unable
to determine whether the Department reported all such payments. The Department’s quarterly
reports were incomplete and cannot be used to adequately assess the level of risk of each of the
Department’s programs or to determine the extent of necessary oversight.

The Department did not comply with section 3(f) of the Executive order because it did not
consider available sources of information that could be applicable to its programs when
compiling the high-dollar improper payment quarterly reports. In addition, it was the
Department’s view that overpayments for which adjustments were being made did not meet the
definition of an improper payment and did not need to be reported, nor did any overpayment
made by the State-administered programs need to be reported.

HIGH-DOLLAR IMPROPER PAYMENTS NOT REPORTED

Federal Requirements

Pursuant to section 3(f) of the Executive order, the Department must report quarterly all
high-dollar improper payments that it identifies. OMB correspondence to Department officials
in response to questions raised by CMS officials on what to include in the quarterly reports stated
that “… if an adjustment is made in the next payment cycle, then it should not be reported as an
overpayment. However, if a provider submits new documentation and an adjustment has not
been made at the time of quarterly reporting (therefore the payment is currently incorrect), then it
should be included as an improper payment.” 1

Medicare Parts A and B

The Department did not report Medicare Parts A and B high-dollar improper payments, as
defined by the Circular, in accordance with section 3(f) of the Executive order. Specifically, for
Medicare Parts A and B, the Department reported only high-dollar overpayments identified
(1) by recovery audit contractors, 2 (2) in data from CMS’s annual fee-for-service error rate
measurement, and (3) by Medicare administrative contractors for which no recoveries had been
made and that were referred to the U.S. Department of the Treasury for collection. The


1
 OMB, “OMB Responses to HHS [Health and Human Services] Questions on Quarterly High-Dollar Overpayment
Reports,” email message, April 27, 2010.
2
 Established under the authority of section 1893(h) of the Social Security Act, the Medicare recovery audit
contractor program is administered by CMS to identify underpayments and overpayments and recoup overpayments.

                                                     3
Department did not report Medicare Parts A and B high-dollar improper payments that were
being recovered.

For Medicare Parts A and B, the Department did not comply with section 3(f) of the Executive
order because it did not consider available sources of information that could be applicable to its
programs when compiling the high-dollar improper payment quarterly reports. While the
Implementing Guidance for section 3(f) does not explicitly call for all sources of information to
be considered, an agency cannot comply with the Executive Order to identify and report high-
dollar improper payments without considering data sources that are applicable and readily
available. The Department did not follow the April 2010 OMB correspondence that clarified the
reporting requirements of the Executive order, i.e., that overpayments for which an adjustment
has not been made at the time of quarterly reporting are incorrect and should be included as
improper payments.

Medicare Parts C and D and Head Start

We were unable to determine whether the Department reported all high-dollar improper
payments for Medicare Parts C and D and Head Start in accordance with section 3(f) of the
Executive order. Pursuant to the Circular, section C(3)(f), Federal agencies should identify such
payments by examining several sources of information, including improper payments identified
under the Improper Payments Information Act of 2002, postpayment reviews, recovery audits,
agency OIG reviews, self-reported improper payments, reports from the public through Internet
and telephone hotlines, and other referrals.

For Medicare Parts C and D and Head Start, the Department did not comply with section 3(f) of
the Executive order because it did not consider available sources of information that could be
applicable to its programs when compiling the high-dollar improper payment quarterly reports.
Medicare Parts C and D officials at CMS analyzed only overpayments made to terminated plans
to identify high-dollar improper payments. Head Start officials at ACF analyzed only data from
the annual error measurement’s statistical sample. The officials relied on these data because none
of the programs had an all-inclusive list of overpayments that could be reviewed each reporting
period to identify high-dollar improper payments. Without such an all-inclusive list, the
Department could not ensure that it reported all high-dollar payments for these programs.

State-Administered Programs

We could not assess whether the Department reported all high-dollar improper payments made
by the five State-administered programs because the Department did not report data for these
programs. The Department stated that it did not report data for these programs because the term
“entity” as defined in part III of the Circular, section C(5)(n), excludes Federal, State, and local
governments. However, according to OMB officials, the Department should report any
high-dollar overpayments made by these five programs to any nongovernmental entity, i.e., any
entity that is not a Federal, State, or local government. Department officials stated that these
programs did not make payments to nongovernmental entities to carry out essential and basic
program functions. However, many of the programs set aside money to pay for training and



                                                 4
technical assistance, which may go to nongovernmental entities and could result in an improper
payment.

RECOMMENDATIONS

We recommend that the Department:

    •   consider developing a comprehensive list of overpayments for all of its high-priority
        programs that takes into account each potential source of an improper payment and that
        can be analyzed to determine whether the thresholds for reporting high-dollar improper
        payments have been met and

    •   determine whether there are any high-dollar improper payments for the five
        State-administered programs that should be reported.

DEPARTMENT COMMENTS

In written comments on our draft report, the Department disagreed with our findings and
explained why it believed it had complied with the Executive order’s reporting requirements.
The Department stated, however, that it would carefully consider our recommendations because
it is “always looking for ways to improve.” The Department also made two technical comments
on our draft report. We addressed those comments, as appropriate, in the “Office of Inspector
General Response” section below.

The Department stated that the OMB implementing guidance does not require agencies to review
“every available source of potential overpayments.” The Department stated that it utilized
several sources to identify high-dollar overpayments in the Medicare Fee-for-Service program.
In addition, for Medicare Parts C and D, the Department stated that it reviewed “payments to
terminated plans, which, because of the programs’ structure, are one of the only potential sources
of high-dollar overpayments.” The Department further stated that it had followed OMB
direction regarding examining adjusted payments. According to the Department, in April 2010,
OMB directed it to report overpayments for which adjustments had not been made and said that
it should not focus on payments for which adjustments had been made. Finally, the Department
stated that the OMB implementing guidance excludes reporting overpayments to “entities,”
including Federal, State, and local government agencies. The Department indicated that the
overwhelming majority of overpayments made by the Federal Government for the five State-
administered programs are to State and local governments and that these overpayments are,
therefore, excluded from the Executive order’s reporting requirements.

The Department stated that it would study our first recommendation to develop a comprehensive
list of overpayments for each program to determine whether it is feasible and cost effective to
implement. In response to our second recommendation, the Department stated that it would
work with the applicable State-administered programs to determine whether there are any high-
dollar overpayments to nongovernmental entities that should be included in future high-dollar
overpayment quarterly reports.


                                                5
The Department’s comments appear in their entirety as the Appendix.

OFFICE OF INSPECTOR GENERAL RESPONSE

After reviewing the Department’s comments, we maintain that our findings and
recommendations are valid.

We acknowledge that the OMB implementing guidance does not require agencies to review
every available source of potential overpayments. However, pursuant to section C(3)(f) of the
Circular, Federal agencies should examine several sources of available information, including,
where applicable, statistical sample reviews conducted under the Improper Payments
Information Act, agency postpayment reviews, recovery audits, agency OIG reviews, self-reports
or reports from the public through Internet and telephone hotlines, and other referrals. The
Department did not examine available sources that could be applicable to its programs.
Specifically, for Medicare Parts A and B, the Department did not examine any high-dollar
improper payments that were in the process of being recovered to determine whether they met
the Executive order’s reporting requirements.

The April 2010 OMB correspondence that the Department refers to in its comments did not
instruct the Department to report only those overpayments where adjustments had not been
made, nor did it state that the Department should not focus on overpayments for which
adjustments had been made. The OMB correspondence stated that “… if an adjustment is made
in the next payment cycle, then it should not be reported as an overpayment. However, if a
provider submits new documentation and an adjustment has not been made at the time of
quarterly reporting (therefore the payment is currently incorrect), then it should be included as an
improper payment.” The Department acknowledged that there were high-dollar improper
payments that had not been adjusted at the time of the Department’s quarterly reporting and that,
according to the OMB correspondence, should have been reported.

For Medicare Parts C and D, the Department stated that, to identify high-dollar improper
payments, it reviewed only overpayments made to terminated plans because it determined that
this source was likely to be the most useful, inclusive, and cost-effective source of high-dollar
overpayments. The Department stated that it also believed that overpayments made to
terminated plans included most errors that would not be identified through the programs’
reconciliation processes. 3 The Executive order, however, requires that all—not most—high-
dollar improper payments be reported. Since the Department reviewed only overpayments made
to terminated plans and did not consider any of the other sources listed in section C(3)(f) of the
Circular, we were unable to determine whether the Department reported all high-dollar improper
payments for Medicare Parts C and D.

For the five State-administered programs, we agree that overpayments made by these programs
to State and local governments are excluded from the Executive order’s reporting requirements.
However, as the Department acknowledged in its comments, these programs make payments to
nongovernmental agencies (e.g., vendors) for services such as training and technical assistance.

3
  Medicare Parts C and D are prospective payment systems in which payments are adjusted to reflect better
information about enrollees or plans during a yearend reconciliation process.

                                                        6
Accordingly, we are pleased that the Department will work with the State-administered programs
to determine whether there are any high-dollar improper payments made to nongovernmental
entities that should be reported.




                                              7
APPENDIX
                                                                                                          Page l of4

              APPENDIX: DEPARTMENT COMMENTS



                        DI<:PARTM ENT OF IU:ALTH AND n m l AN SERVICES




Dijniel R.levinson
Inspector General
Dep<lrtment of Health and Human Services
Collen Building. Room 5250
330 Independence Ave, S.w.
Washington, D.C. 20201


Dear Mr.levinson:

Thank you for sharing the draft report on the results of your review oflhe Departmenl of Health
and Human Services' (HHS) compliance with Executive Order (£0) 13520 when reponing Fiscal
Year (FY) 2010 high-dollar improper payments. The Department appredates the opportunity to
review this draft report prior to publica tion.

As the draft report notes, one of the EO's requ irements is to complete quarterly reports Ihal
identify high-dollar Improper payments that meet thresholds set by the Office of Management
and Budget's (OM B) implementing guidance. HHS respectfully disagrees with t he dlClh report's
find ings that we did not comply with the EO's quarterty high-dollar o....erpayment reporting
requirement. We belie....e t hat the Department complied with the EO's quarterly high-dollar
o....erpayment reporting requirement for the following reasons:


    1) 	 The OMB Implementing guidance does not requi re agendes to re....iew e....ery a....ai lable
        source of potential o ....erpayments. Rather, the guidance states MHigh-doliar
        overpayments should be identified by examining ~ .... erol [Italics added] sources of
        information a....ailable to agencies. For instance, agendes could [italic; added] identify
        high-....alue errors, where applicoble [Ita lics added], throughM statistkal samples, post-
        payment reviews, reco ....ery audits, IG re....iews, self·reports, or public referra ls. The
        Department utilizes se....eral sources to identify high-dollar o....erpayments in the
        Medicare Fee-For-Service program, such as the e rror measurement process,
        overpayments referred to the Treasury Department for collection, and the reco ....ery
        audit program; and, for Medicare Part C and Part 0, tile Department re.... lews payments
        to termina ted plans, which, because of the programs' structure, are one o f tile only
        potential sources of high-dollar overpayments.


    2) 	 HHS has followed OMB direction regarding examining adjusted payments. Due to the
        unique nature of our proglClms, we met with OMB aher t he implementi ng guid ance was
        released to discuss .st;.... eral HHS-specific issues related t o producing the quarterly high­
        dollar ove rpayment reports and com plying with the EO. As a result of these discussions,
        in April 2010, OM8 directed HHS to re port on overpayments for which adjustments had
        not been made, and not to focus on payments for which adjustmen ts had been made.
                                                                                                     Page2of4




    3) 	 The OMS Implementing guidance e)(cJudes reporting overpayments to entitles. The
        OMB Implementing guidance defines the term - entity" as '"e)(clude[lngl an Individual
        acting in either a personal or comme rcia l capacity (that is, a sole proprietor) and
        Federal, state, and local government agencies". For HH5' five state-administered
        programs, the ollerwhelming ma;ority of the payments made by the Federal
        government are to state and local governments; thus they are excluded from EO
        reporting requirements. In addition, we notified OMS of our implementation approach
        for state·administered programs and they did not direct the Department to change Its
        approach.

With respect to the recommendations within the draft report, we are always looking for ways t o
improve our effort s and will carefuny consider the recommendations. Specifically, HHS will
study the recommendation to develop a more comp rehensive list of ollerpayments for each
program to determine if it 15 feasible and cost-effectille to Implement. tn addit ion, we believe
that the likelihood of any higll-dollar oyerpayments In the stat e-administered programs that pay
for .services like training and technical assistance is lIery small (tue 10 limited outlays; well­
established paymellt procedures, illdudlllg colltract mOllitoring; alld strong internal controls.
However, we will work with the applicable programs to determine if there are any high-doltar
overpayments to non·governmelltiill eotities that should be included In future hlgh-dollar
overpayment quarterly reports. lastly, HHS will meet with OMS to ellsure OMB continues to
approve our Implementation of the EO, and we will notify yo ur office of the results of these
diSCUSSions.

Thank vou again for your ongoing efforts to assist the Departmeill. We look forward to
continuing to partner .w ith your office to prevent iilnd reduce improper payments.

                                                  Sincerely,




                                                  Ellen G. Murray
                                                  Assistant Secretary fo r Flnanclat Resources




Attachment: Technical Commellts on the HHS OIG Draft Report 011 Compliance wit h EO 13520
When Reporting FY 2010 High·Doliar Improper Pavrnents (A-02-11--(11007)




                                                  2
                                                                                                          Page30f4




    Attachment: Technical Comments on the HHS OIG Draft Report on
    Compliance with EO 13520 When Reporting FY 2010 High-Dollar Improper
    Payments (A-02-11-01007)

    Below are our tKhnical commen ts on the draft report.

       • 	 In several sections of the report (Pages Wand 3), the draft report notes that - In addition,
           it was the Department's opinion thit overpayments for which adjustments were being
           made did not meet the definition of an improper payment and did not need to be
           reP.Orted, nor did any overpayments made by the State-administered programs need to
           be reported.­


           Not including adjustments was not based on - the Department's opinion-, but was
           implemented after consultation with OMB in which OM8 directed HHS in April 2010 not
           to focus on overpayments for which adjustments had been made.


           Also, the EO does no t require high-dollar overpayments made to states to be reported
           because the [0 guidance excludes states from the definition of an entity, thereby
           excluding payments to sta tes from the high-dotlar overpayment quarterly report. In
           addition, neither the EO nor the implementing guidance requires the agency to report
           high-dollar overpayments made by states to its recipients. Therefore, HHS notified OMB
           that we woul d not be reporting Information for the state-administered programs, and
           OMB did not direct HHS to cha nge Its reporting efforts.

           AccordIngly, we recommend that this sentence be deleted throughout the document.


)
       • 	 In the MedIcare Parts C and 0 section on Page 4, the draft report notes that Part C and 0
           0t:flcials only analyled overpayments made to terminated plan s to identify high-dollar
           improper payments, and this source was not alI-inclusive of potential errors. However,
           HHS believes this source includes most errors that would be Identified outside of the
           reconciliation process.


           Specifically, Medicare Part C and Part 0 are prospective payment systems with
           reconciliation ocaJrring multiple times following the close ofltle payment. year. During
           reconciliation, payments are adjusted to reflect better information about the enrollees
           or plan that Impact payment (for example, offsetting any remaining payments to
           account for improper overpaymenu made earlier In the year), which are very Similar to
           the ongoing adjustments that are made In the Med)care Fee-For-Service program .


           However, termInated plans sometimes receive payment inappropriately due to delays In
           termination notifica'tions. For example, the terminated plans should no longer be
           receiving payments from the payment system, but due to the delays in the termination


                                                    3
                                                                                              Page 4 of 4




not ificat ion they may receive payment. In these cases, payments to terminated pla ns
are the only entities for which specifIC overpayments can be routinely Identified. As a
result, HHS now routinely checks fo r the inappropriate payment of terminated plans and
has taken steps 10 facilitate payment recovery under this cirtumslance.

Accordingly, we recommend that this sentence shOUld be revlsed to say - Medicare Parts
C and 0 officials at CMS analy~ed only overpayments made 10 termInated plants to
Iden tify high-dollar improper payments, which HHS determine·d was likely to be the
mosl useful, incl usive, and cost-effective sou rce of hlgh-dollar overpayment info rmation
forthe progra m s.~




                                        4
